No. 20-1525

IN THE
SUPREME COURT OF THE UNITED STATES
LEWIS ARCHER
Petitioner
vs.
AMERICA'S FIRST FEDERAL CREDIT UNION
Respondent

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the PETIONER'S REPLY
TO BRIEF IN OPPOSITION TO PETITION FOR WRIT OF CERTIORARI
contains 1211 words, excluding the parts of the petition that are exempted by
Supreme Court rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
,
Executed on 07Art—

44/
A NTH ON Y MMYANE RABB
NOTARY RIB; IC
STATE OF ALABAMA
COMM. EXP. 08-01-2023

, 2021.

